Credit Card Rates Disclosure
The information about costs and the Annual Percentage Rate (APR) of the cards described in this disclosure is accurate as
of August 17, 2020. To find out what may have changed since this date, please call 800.225.3967.

Credit Cards

Interest Rates

Visa Honor Purchase and Balance Transfers

8.24% to 18% APR*

Visa Value Purchase and Balance Transfers

8.24% to 18% APR*

Visa Platinum Rewards Purchase and Balance Transfers

9.24% to 18% APR*

Visa Cash Back Purchase and Balance Transfers

9.24% to 18% APR*

Visa Signature Purchase and Balance Transfers

12.24% to 18% APR*

Visa Credit Builder Secured Purchase and Balance Transfers
Cash Advances

16.25% APR*
2% above existing APR

*Rates shown are variable and subject to change. Your rate may vary based on individual creditworthiness and our
underwriting standards. This APR will vary with the market based on U.S. Prime Rate. Rates capped at 18%. After a
change to the Prime Rate, the new rate will be applied at the start of your next monthly billing cycle.

18.00% may be applied to your account if you:
Penalty APR and
When It Applies

(1)
(2)
(3)
(4)

Make a late payment
Go over your credit limit
Make a payment that is returned; or
Do any of the above on another account you have with us

How long will the Penalty APR apply? If your APRs are increased for any of these
reasons, the Penalty APR will apply until you make six consecutive minimum payments
when due.
If you receive a penalty rate, you will no longer be eligible for rewards benefits.

Paying Interest

Your due date is at least 25 days after the close of each billing cycle. We will not charge you
any interest on purchases if you pay your entire balance by the due date each month.
We will begin charging interest on cash advances and balance transfers on the transaction
date.

Minimum Payment

The minimum payment is the greater of 2% of the total new balance, or $35, or the total new
balance if less than $35. If the balance exceeds the limit, the minimum payment is $35 plus
the amount over the limit or 2% of the balance, plus the amount over the limit.

Credit Card Tips From
The Consumer Financial
Protection

To learn more about factors to consider when applying for or using a credit card, visit the
website of the Consumer Financial Protection Bureau at
http://consumerfinance.gov/learnmore.

PO Box 1551, Jacksonville, NC 28541
www.marinefederal.org • 910.577.7333 • 800.225.3967

Page 1 of 2
Comm.Rev 8/20

Fees
Annual Fee

Visa Credit Builder is the only card with an Annual Fee of $29
Balance Transfer:

Transaction Fees

3% or $10 whichever is greater

Foreign Transaction:

Up to
2.80%

Cash Advance:

3% or $10 whichever is greater Credit Card Recovery: $75

Visa Receipt Copy:

$2 plus research costs

Research:

$10 per
hour

Billing Statement Copy: $5

Penalty Fees

st
Late Payment Fee: $27+ on the 1 occurrence or $35+ for each additional occurrence if the
payment is not made by the due date.

Returned Payment Fee: $25+ on each occurrence.
+

Or less as restricted by law. The fee amount will not exceed the amount of your minimum payment.

How we will calculate your balance: Average Daily Balance method is figured by adding the outstanding balance (including
new purchases, and deducting payments and credits) for each day in the billing cycle and dividing the total of each day by
the number of days in the billing cycle.
Billing Rights: Information on your rights to dispute transactions and how to exercise those rights is provided in your
account agreement.
Security Interest for Visa Credit Builder: You have entered into a Security Agreement which (1) grants us a security
interest in the Marine FCU share that you opened in connection with your Credit Card and (2) gives us certain rights upon a
Default (as defined in the Agreement).
Security for Advances and Purchases: The Credit Union will acquire a security interest in the property purchased
with your Credit Card; and collateral securing other loans with us may also secure this account. Also, you are
giving us a security interest in your shares and other deposits in the Credit Union.

PO Box 1551, Jacksonville, NC 28541
www.marinefederal.org • 910.577.7333 • 800.225.3967

Page 2 of 2
Comm.Rev 8/20

